July 27, 2010

KELLY SIGMON
VICE PRESIDENT, ENGINEERING

SUBJECT:        Audit Report – Flats Sequencing System: Program Status and Projected
                Cash Flow (Report Number DA-AR-10-007)

This report discusses the Flats Sequencing System (FSS) program status and its
projected financial impact and addresses both operational and financial risks (Project
Number 09YG052DA000). The objective of this audit was to assess procedures for
reporting of FSS performance and program savings shortfalls. See Appendix A for
additional information about this audit.

In December 2006, the U.S. Postal Service approved a                   project to develop,
purchase, and deploy 100 FSS machines, which are designed to sort flat mail in the
precise order in which it is delivered. The first two contract requirements tests of FSS
machines (designed to ensure functionality, quality, and compliance with specifications)
have shown shortfalls in expected performance. Typically, when there is a First Article
Test (FAT) failure, Postal Service acquisition guidelines call for retests before beginning
deployment. However, in this case, the Postal Service has decided to deploy FSS
machines despite major performance shortfalls in order to capture savings earlier;
however, deploying FSS machines that do not meet contract requirements could reduce
expected savings. Although the Postal Service has adjusted its savings expectations and
project assumptions have changed, it has remained optimistic when communicating
expected financial outlooks.

Conclusion

The Postal Service’s revised performance projections in Quarter 1 (Q1) of fiscal year (FY)
2010’s Investment Highlights report do not use current actual machine performance and
its projection of a gain of at least $872 million from FSS appear optimistic. In addition,
there have been significant changes in assumptions for FSS machines and measurement
criteria since the 2006 approval of the original investment. For example, flats volumes
have decreased significantly, expected throughput rates have not been met, planned FSS
sites have increased, the program schedule has changed by a year, and additional
savings for transitional employees (TE) have been introduced to the investment return.
These changes make it challenging for the Postal Service to measure project success as
initially defined.
Flats Sequencing System:                                                                          DA-AR-10-007
 Program Status and Projected Cash Flow

Particularly, we believe adding TE savings to the evaluation of FSS program success is
questionable for several reasons. First, these savings were never considered as part of
the original investment decision. Second, 44 percent of TEs are not in districts that will
eventually host FSS machines. Lastly, management claimed these savings prior to FSS
deployment and has the option of reducing TE complements for volume declines
irrespective of the FSS program’s success. Thus, much of the savings from these
employees will likely not be associated with FSS deployment.

The Postal Service’s Q1, FY 2010 Investment Highlights report shows a projected gain for
the FSS program of at least $872 million and a return of at least 27 percent. Using current
actual performance data for the highest performing machine and operational target
metrics, we calculated four financial scenarios for measuring program status and progress
against program goals. These scenarios were at least $431 million lower than the
scenarios the Postal Service presented. Such a large difference exists because the Postal
Service used more optimistic performance assumptions rather than actual machine
performance or operational target results.

Our analysis shows that using current FSS performance data to calculate projected
savings results in a net present value (NPV) of $215 million (a rate of return of 14.49
percent). If we remove the questionable TE savings, the NPV decreases to a negative
$311 million (a rate of return of 5.18 percent). Assuming the FSS machines reach the
operational target metrics, we calculate gains from FSS to be $441 million (rate of return of
19.26 percent). If we remove the questionable TE savings, there is a projected NPV of a
negative $85 million (a rate of return of 8.54 percent).

The Postal Service’s Handbook F-661 requires accurate analysis and reporting of program
impact. One purpose of the Investment Highlights report is to show the progress of
large-scale programs within the Postal Service. Reporting program performance based on
actual and operational target data is critical so that key decision-makers (such as the
Board of Governors) have sufficient information to monitor program progress on projects
of significant duration. See Appendix B for our detailed analysis of this topic.

We recommend the vice president, Engineering:

1. Use actual machine performance and operational target data to more accurately report
   the progress of the Flats Sequencing System program’s financial outcomes in
   compliance reports such as the Investment Highlights report.




1
 General Investment Policies and Procedures (November 2005, updated with Postal Bulletin revisions through October
11, 2007) provides a single source overview of investment projects.




                                                         2
Flats Sequencing System:                                                       DA-AR-10-007
 Program Status and Projected Cash Flow

Management’s Comments

While management agreed with the recommendation to use actual machine performance
data for compliance reports, they took exception to certain findings and our
recommendation to use operational target data. Specifically, the Postal Service will include
an additional FSS financial scenario when reporting outcomes in Investment Highlights
reports. Management will take this action in time for the Q3, FY 2010 Investment
Highlights report. The reported scenario will represent the Postal Service’s most current
assessment of actual machine performance. In reference to using operational target data,
the Postal Service does not believe they are representative of long-term expectations and
elected not to present them in future Investment Highlights reports.

Management also said the financial outcomes presented in the report do not recognize:

      Throughput improvements demonstrated during tests in November 2009 and April
       2010.

      Performance improvements over the 10-year program life and performance levels
       already achieved by the first article machine.

      Over 17 hours of daily runtime for unconstrained machines.

      The relevance of TEs, their strategic use, and the resulting savings attributable to
       the FSS program.

      Scheduling adjustments that address lower mail volumes.

      Additional savings related to delivery unit space reductions and vehicle capital
       investment and maintenance avoidance.

Thus their lower bound outcomes represent the likely worst case scenario. We have
included management’s comments, in their entirety, in Appendix D.

Evaluation of Management‘s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendation and management’s corrective actions
should resolve the issues identified in the report. In response to management’s comments,
we believe the presentation of outcomes based on actual machine performance allows the
tracking of improvements from program inception and note that interim operational
performance data is a performance tracking measure currently in use.




                                              3
Flats Sequencing System:                                                      DA-AR-10-007
 Program Status and Projected Cash Flow

In response to comments that we did not provide sufficient recognition on progress made,
we recognize performance improvements in a controlled test environment in Table 1 and
note the following:

      The Dulles #2 machine with the most time in operations has yet to meet key
       performance metrics stated in the DAR and has twice failed the FAT for its inability to
       meet performance test requirements. As such, we believe it is premature to assume
       operational performance improvements throughout the 10-year investment life.

    The FSS Daily Report dated July 19, 2010 highlights that unconstrained machines, on
      average, are operating less than the 17 hours per day that management asserts.

In reference to TEs, we reiterate that the inclusion of associated savings is questionable
for the stated reasons and add that carrier complements had been declining before the
advent of the FSS program. Combined with volume losses, we believe management would
have been prudent to have seized the opportunity to reduce complements even without an
FSS program. We do not disagree that scheduling changes were made to address volume
declines and encourage management to include any additional savings it can directly
attribute to the FSS program. We believe our report presents a fair and conservative view
of financial outcomes based on actual operational performance demonstrated to date and
the interim or short-term operational goals used by management.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Miguel Castillo, director,
Engineering and Facilities, or me at 703-248-4546.

      E-Signed by Mark Duda
 VERIFY authenticity with ApproveIt




Mark W. Duda
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Patrick   Donahoe
       Steven J. Forte
       Thomas P. Shipe
       Gene Sutch
       Corporate Audit Response Management




                                              4
Flats Sequencing System:                                                                                 DA-AR-10-007
 Program Status and Projected Cash Flow



                              APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

In December 2006, the Postal Service approved a                 Phase I Decision Analysis
Report (DAR) to develop, purchase, and deploy 100 FSS machines. With this budget, the
FSS program is currently the Postal Service’s largest mail automation investment. The
Postal Service initially expected it to generate a NPV2 of $1.85 billion with a Return on
Investment (ROI) of 27.7 percent.

The Postal Service contracted with Northrop Grumman Systems Corporation to develop
and field FSS systems that sort flat mail (mailpieces that exceed one of the maximum
dimensions of letter-size mail, such as large envelopes) in delivery order. To date, the FSS
system has twice failed contract requirements testing, known as FAT. The Postal Service
conducted the original FAT from November 23 to December 20, 2008 and a second FAT
(2A) from April 26 to May 9, 2009. The agency also planned, but later postponed, a third
FAT (2B) scheduled for October 2009. In the interim, the Postal Service evaluated
software and hardware upgrades to the FSS machine located at the Dulles Processing
and Distribution Center (P&DC) in April 2010.


OBJECTIVE, SCOPE, AND METHODOLOGY

The objective was to assess the reporting of FSS performance and program savings
shortfalls. To accomplish our objective, we reviewed the revised DAR sensitivity analysis
the Postal Service’s Program & Financial Performance and System Engineering groups
provided to us. We also reviewed year-to-date system performance data from the 12 FSS
systems presently deployed and in operation. We also reconciled the Postal Service’s
cash flow model to the Q1, FY 2010 Investment Highlights report and made updates
based on available system data. Additionally, we conducted interviews with management
regarding projected returns and their short-term solutions to ensure FSS systems will meet
contract performance requirements. We also recalculated DAR sensitivity analyses based
on actual field performance and established Postal Service operational target performance
metrics.

We conducted this performance audit from October 2009 through July 2010 in accordance
with generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
recommendation based on our audit objective.
2
 NPV compares the value of a dollar today to the value of that same dollar in the future, taking inflation and returns into
account. If the NPV of a prospective project is positive, it should be accepted. However, if the NPV is negative, the
project should probably be rejected because cash flows will also be negative.




                                                             5
 Flats Sequencing System:                                                                DA-AR-10-007
  Program Status and Projected Cash Flow



 We also obtained actual FSS performance data as of May 2010 from Postal Service
 Engineering. We agreed with management to use performance results from the FSS
 system operating with the most current upgrades. We assessed the reliability of FSS data
 by comparing performance results to prior periods and interviewing agency officials
 knowledgeable about the data. We determined that the data were sufficiently reliable for
 the purposes of this report. We discussed our recommendation with management officials
 on April 29, 2010, and included their comments where appropriate.

 PRIOR AUDIT COVERAGE

                           Report
    Report Title          Number           Final Report Date                   Report Results
Effects of the Flats    DR-AR-09-011           9/28/2009       The audit determined that, due to flats
Sequencing System                                              volumes decreasing by more than 50
on Delivery                                                    percent during the test period, the Postal
Operations –                                                   Service could not determine which
Northern Virginia                                              operational gains were due to FSS
District                                                       implementation. We did not find any
                                                               adverse effects on delivery operations and
                                                               did not make any recommendations in this
                                                               report.
Flats Sequencing        DA-AR-09-012            9/4/2009       The audit determined FSS machine
System: First Article                                          performance improved from the original
Retest Results                                                 FAT test but the system failed to meet
                                                               several key performance parameters.
                                                               The Postal Service attributed FSS
                                                               performance shortcomings to the supplier’s
                                                               inability to incorporate additional hardware
                                                               and software solutions into the FAT 2A
                                                               system. We recommended the Postal
                                                               Service install and test only one additional
                                                               FSS until the system demonstrates
                                                               operational stability and successfully
                                                               passes the field acceptance test.
                                                               Management partially agreed with the
                                                               finding and recommendation.
Flats Sequencing        DA-AR-09-001          12/23/2008       The audit determined that program
System: Program                                                management was attentive to system
Status                                                         performance and schedule risks. However,
                                                               declines in mail volume introduced a
                                                               substantial new deployment risk to the
                                                               program that requires management to
                                                               develop a mitigation plan. Management
                                                               agreed with the finding.
Flats Sequencing        DA-AR-08-006 6/4/2008                  The audit determined the Postal Service
System: Production                                             needed to focus more attention on
First Article Testing                                          workload, FAT schedule, and critical
Readiness and                                                  deliverables. Management generally
Quality                                                        agreed with the findings and
                                                               recommendations.




                                                    6
Flats Sequencing System:                                                                              DA-AR-10-007
 Program Status and Projected Cash Flow



                                    APPENDIX B: DETAILED ANALYSIS

Investment Assumption Changes

The Postal Service tracks investments requiring a DAR throughout the progress of the
investment using the Investment Highlights report. Schedule modifications, changes in
approaches to deployment, elimination of requirements, or potential expansion or
elimination of any aspect of the investment defined in the DAR require notification to the
Board of Governors or other approving authority. The notification may appear in the
special issues section of the Investment Highlights report or in a letter to the Board, or as a
DAR modification. The approving authority must review, validate, and approve DAR
modification requests before the sponsor departs from the approved DAR. Processes to
notify the Board of Governors and senior management are available so business decisions
can be made based on changes in the environment that were not expected or anticipated
when the DAR was originally drafted.

Since initial program approval, various assumptions influencing investment outcomes have
changed. For example:

          Flat volume is continuing to decline, making it a challenge to operate under the
           approved assumption of 280,500 pieces per day, per machine with a throughput of
           16,500 pieces per hour. Our review of the year-to-date actual flats volume
           processed on the current FSS systems reveals an average of 127,100 flats
           processed per FSS system, well below the approved assumption.

          The average throughput rate for the unconstrained3 machines is lower than the
           original assumption. The average throughput is 9,958 pieces per hour which is
           significantly below the DAR assumption of 16,500.

          Sites for the 100 FSS machines increased from 32 to 47. Management made this
           decision to redirect additional machines to sites that can process required FSS mail
           volumes.

          The program schedule is 1 year behind. The DAR called for completion of
           deployment by September 2010 while the current schedule indicates a deployment
           date of September 2011.

          In Q1, FY 2010 the Postal Service introduced TE savings and its impact on returns.

The Postal Service has not formally sought investment modification but has communicated
changes in the Investment Highlights report. In a future effort, the U.S. Postal Service
Office of Inspector General (OIG) plans to review the Postal Service’s process for
changing and reporting investment project assumptions, and will evaluate whether greater
transparency and governance are needed.
3
    Unconstrained FSS systems process flat mail on two tours and have no limitations on processing hours.




                                                            7
         Flats Sequencing System:                                                                                  DA-AR-10-007
          Program Status and Projected Cash Flow



         Program Status and Performance Results

         As of May 2010, management had spent $831,532,000                     of the program’s
         approved budget. In addition, 12 FSS systems are processing live mail but have yet to
         pass a FAT. The Postal Service also conducted two evaluation tests in a controlled
         environment but FSS machines were performing below expectations.

         Table 1 presents three key contract requirements and performance results taken in both a
         controlled and an operational environment. Performance results revealed that the FSS
         system consistently failed to meet key Statement of Work (SOW) performance
         requirements.

                                          Table 1 – System Performance Results

                                                    Controlled Environment4                          Operational Environment
                                                                                                                       Actual
    SOW                                          FAT 1           FAT 2A         Evaluation          Dulles Actual  Performance
                        SOW
Performance                                     Results          Results          Test 2            Performance      Averages
                     Requirements
  Metrics                                        11/2008           04/2009          04/2010        With Upgrades5     All Sites
                                                                                                                                   05/2010
6
 Throughput                16,500                10,601            12,603           14,181                10,315                    9,958
Rate
(Pieces/Hour)
7
 Accept Rate              94.60%                 89.90%           94.04%           94.66%                  94.0%                  92.08%
Operational
                           95.0%                -16.34%9          64.75%           82.85%
Availability 8
Operational
                                                                                                            17.1                     12.8
Time (Hours)




         4
           Test conditions in which program management controls mail type, operational environment, and maintenance support.
         5
           FSS Report Results, dated May 23, 2010 (results are after the evaluation test of upgrades).
         6
           The cumulative throughput rate for all zones is determined by the total pieces fed on pass 1 of all zones, divided by the
         time elapsing between first piece fed in the first zone to the time the first tray is ejected onto the full tray accumulation
         conveyor in the last zone, minus non-chargeable time.
         7
           The cumulative accept rate for all zones is determined by total pieces accepted, including all machineable mail
         presented to the system on first pass in each zone, divided by pieces fed on first pass in each zone, minus re-fed pieces.
         8
           Percentage of operational time as specified in the SOW.
         9
           The negative rate indicates more maintenance time than runtime recorded.




                                                                      8
Flats Sequencing System:                                                       DA-AR-10-007
 Program Status and Projected Cash Flow



Reported Financial Outcomes

FSS management reports financial outcomes quarterly in the Investment Highlights report.
As presented in Illustration 1, the Postal Service’s Q1, FY 2010 Investment Highlights
report showed returns ranging from 14.3 to 43.3 percent. More favorable returns were
associated with scenarios that included savings from TEs. These returns also factored
performance assumptions for throughputs ranging from 12,500 to 15,100 per hour with the
machine operating 17 hours per day and a 95 percent accept rate.


       Illustration 1 — FSS Q1, FY 2010 Investment Highlights (Special Issues)




Lastly, the revised sensitivity analysis included financial outlooks with TE savings. In 2007,
the Postal Service negotiated the hiring of 8,000 TEs with the National Association of
Letter Carriers. Our analysis of TEs disclosed the following:

      Of 8,000 TEs, 7,330 were on board as of February 2010. Comparing system data to
       deployment plans shows that only 4,492 TEs were in districts that will eventually
       host an FSS machine.

      Management claimed savings for all 8,000 TEs in 2008 and 2009 when only 11
       FSS systems were deployed and operational.

      Management has the option of reducing TE complements for volume declines
       irrespective of FSS program success.

Using the Postal Service’s cash flow model, we calculated NPVs and returns using actual and
operational target performance metrics. In addition, we presented outlooks with and without
TE savings. As depicted in Table 2, the NPV is $215 million when actual performance and
TEs are considered and the associated rate of return is 14.49 percent. Using target metrics
(which have not yet been achieved) with TE savings increases the NPV to $441 million and
results in a 19.26 percent ROI that exceeds the approved discount rate.

When TE savings are removed and actual performance is considered, the NPV is a negative -
$311 million and the corresponding rate of return is 5.18 percent. When TE savings are




                                              9
Flats Sequencing System:                                                                               DA-AR-10-007
 Program Status and Projected Cash Flow

removed and target performance is considered, the NPV is a negative -$85 million and the
corresponding return is 8.54 percent.

                  Table 2 – Summary Financial Outcomes Calculated by the OIG

                                              Q1 Investment
                                                                      Dulles Actual
     Performance Measure                       Highlights                                         Target Metric11
                                                                      With Updates10
                                              Lower Bound
Throughput (pieces per hour)                      12,500                    10,315                      11,500
Accept Rate                                        95%                       94% 93%
Operational Time (hours)                            17                        17.1                         16

Return (with TE savings)                            26.9%                   14.49%                     19.26%
Total NPV (millions)                                 $872                    $215                       $441

Return (without TE savings)                        14.25%                   5.18%                       8.54%
Total NPV (millions)                                $346                    $(311)                      $(85)

We chose the Dulles P&DC and operational target metrics to recalculate the financial
scenarios since:

        The Dulles P&DC hosts the FSS with the latest upgrades, most operational
         experience, and supplier maintenance support. We believe the Dulles FSS should be
         the best performing machine considering the level of experience and support.

        The Postal Service’s target metric is a reasonable improvement expectation as
         operations personnel at P&DCs gain more experience using the machine.

It is important that the progress of a project be accurately reported so that executives have
the necessary information for decision-making. The general investment handbook (Project
Compliance and Cost Studies) highlights that the purpose for tracking an approved
program’s DAR is to provide the following assurances:

        Projects are implemented as approved.

        Management reviews metrics (indicators and methods) on an ongoing basis to
         evaluate achieved benefits and savings.




10
   Dulles actual updates represent the post-evaluation test results after hardware and software solutions are
implemented.
11
   Target metrics are operational expectations below the original DAR assumptions.




                                                           10
  Flats Sequencing System:                                                                              DA-AR-10-007
   Program Status and Projected Cash Flow



           Adequate (actual) cost data are captured for compliance reports. Various types of
            data must be collected, either manually or via an automated tracking system.
            Collected data includes machine run times, downtimes, idle times, throughput per
            run hour, and workhour savings for new equipment.

  The Postal Service indicated the purpose of the various FSS scenarios presented in the
  Q1, FY 2010 Investment Highlights report was to estimate the potential financial impact
  over the life of the program after the supplier completes the anticipated hardware/software
  upgrades. We believe unreported savings deficiencies exist because the Postal Service
  elected to use performance assumptions rather than available system performance data
  as called for in the general investment handbook. As a result, we estimate the Postal
  Service over-reported their financial scenarios’ NPVs by at least $431 million in the Q1, FY
  2010 Investment Highlights report.

  Table 3 shows these amounts are the difference between the OIG’s cash flow scenarios
  and Postal Service’s lower bound NPVs. See Appendix C for detailed cash flow
  statements.

                            Table 3 – Differences in NPV and Return Values

                                     1                   2                     3                  4                   5
                                                   OIG Financial
                                                                          Savings         OIG Financial          Savings
                             Postal Service         Projection
                                                                         Difference        Projection           Difference
       Parameters            Lower Bound          Based on Actual
                                                                           Actual        Based on Target          Target
                              Projection          Performance at
                                                                           (1– 2)            Metrics              (1– 4)
                                                   Dulles P&DC
NPV Savings With TE
                                   $872                  $215                $657               $441               $43112
(Millions)
         Return                   26.9%                 14.49%                                19.26%
NPV Savings Without
                                   $346                  $(311)              $657               $(85)               $431
TE (Millions)
         Return                  14.25%                  5.18%                                 8.54%




  12
    Considered capital investment savings shortfall since this amount is less than Postal Service’s reported lower bound
  projection. It anticipates some future performance improvements.




                                                             11
Flats Sequencing System:                                                                                                    DA-AR-10-007
 Program Status and Projected Cash Flow
                                                       APPENDIX C: NON-MONETARY IMPACT

                                          Postal Service Lower Bound without TE Cash Flow (Excerpts)
   Project year          0                   1                 2               11               12              13          14             Total
Fiscal Year            (2007)             (2008)            (2009)           (2010)           (2011)          (2012)      (2021)
Total Capital
Investment


Total Expense
                         $0                $0                $0
Investment

Total Operating
                    ($15,560,556)    ($39,636,741)      ($42,720,384)    ($23,204,855)     $18,674,375     $348,422,178    $0
Variances

Net Cash Flow       ($68,664,278)    ($289,484,378)     ($371,723,683)   ($343,481,819)   ($313,518,097)   $139,497,997

Discounted cash
                    ($68,664,278)    ($263,767,087)     ($308,610,838)   ($259,830,523)   ($216,094,891)    $87,608,315    $0
flow @ 9.75%

NPV @ 9.75%        $346,000,086                          The rate of return exceeds both the discount rate and cost of capital.
ROI                14.25%

                                            Postal Service Lower Bound with TE Cash Flow (Excerpts)
  Project year            0                 1                 2               11               12               13         14              Total
Fiscal Year            (2007)             (2008)            (2009)           (2010)           (2011)          (2012)      (2021)
Total Capital
Investment


Total Expense
                         $0                $0                $0
Investment

Total Operating
                    ($15,560,556)    $161,642,139       $179,346,387     $170,075,544     $36,974,789      $348,422,178    $0
Variances

Net Cash Flow       ($68,664,278)    ($88,205,498)      ($149,656,912)   ($150,201,420)   ($295,217,683)   $139,497,997

Discounted cash
                    ($68,664,278)    ($80,369,474)      ($124,247,518)   ($113,621,482)   ($203,481,182)    $87,608,315    $0
flow @ 9.75%

NPV @ 9.75%        $872,589,768                 The rate of return exceeds both the discount rate and cost of capital.
ROI                26.9%

                                                                              12
Flats Sequencing System:                                                                                                               DA-AR-10-007
 Program Status and Projected Cash Flow


                                        OIG Cash Flow - Actual Performance (Dulles) Without TE (Excerpts)

  Project year           0                     1                    2                 11               12              13              14             Total
Fiscal Year            (2007)               (2008)               (2009)             (2010)           (2011)          (2012)          (2021)
Total Capital
Investment                          )                                       )                )                                   )



Total Expense
                         $0                  $0                   $0
Investment

Total Operating
                    ($15,560,556)       ($39,636,741)        ($44,323,927)      ($40,803,672)    ($54,540,315)    $212,674,551        $0         $2,163,046,056
Variances

Net Cash Flow       ($68,664,278)       ($289,484,378)       ($373,327,226)     ($361,080,636)   ($386,732,787)    $3,750,370                     $669,697,781

Discounted cash
                    ($68,664,278)       ($263,767,087)       ($309,942,124)     ($273,143,338)   ($266,558,709)    $2,355,329         $0         ($311,340,635)
flow @ 9.75%

NPV @ 9.75%        ($311,340,635)                    The rate of return does not exceeds discount rate but exceed cost of capital.
ROI                 5.18%

                                         OIG Cash Flow - Actual Performance (Dulles) With TE (Excerpts)

   Project year          0                     1                    2                 11               12              13              14             Total
Fiscal Year            (2007)               (2008)               (2009)             (2010)           (2011)          (2012)          (2021)
Total Capital
Investment                          )


Total Expense
                         $0                  $0                   $0
Investment

Total Operating
                    ($15,560,556)       $161,642,139         $177,742,845       $152,476,727     ($36,239,901)    $212,674,551        $0          $2,797,972,520
Variances

Net Cash Flow       ($68,664,278)       ($88,205,498)        ($151,260,454)     ($167,800,237)   ($368,432,373)    $3,750,370                     $1,304,624,245

Discounted cash
flow @ 9.75%
                    ($68,664,278)       ($80,369,474)        ($125,578,804)     ($126,934,297)   ($253,945,001)    $2,355,329         $0          $215,243,048


NPV @ 9.75%        $215,243,048                         The rate of return exceeds both the discount rate and cost of capital.
ROI                14.49%

                                                                                     13
Flats Sequencing System:                                                                                                        DA-AR-10-007
 Program Status and Projected Cash Flow


                                              OIG Cash Flow - Target Performance without TE (Excerpts)

   Project year          0                     1                 2               11               12                13          14                Total
Fiscal Year            (2007)               (2008)            (2009)           (2010)           (2011)            (2012)      (2021)
Total Capital
Investment                          )


Total Expense
                         $0                  $0                 $0                      )                  )
Investment

Total Operating
                    ($15,560,556)       ($39,636,741)      ($43,062,657)   ($27,681,352)     ($3,353,850)      $253,969,485    $0          $2,638,651,190
Variances

Net Cash Flow       ($68,664,278)       ($289,484,378)    ($372,065,956)   ($347,958,316)   ($335,546,322)     $45,045,304                 $1,145,302,915

Discounted cash
flow @ 9.75%
                    ($68,664,278)       ($263,767,087)    ($308,894,998)   ($263,216,817)   ($231,278,023)     $28,289,605     $0          ($85,088,434)


NPV @ 9.75%        ($85,088,434)
ROI                8.54%                 The rate of return does not exceeds discount rate but exceed cost of capital.


                                                  OIG Cash Flow - Target Performance with TE (Excerpts)

   Project year          0                    1                  2               11               12                13          14                Total
Fiscal Year            (2007)              (2008)             (2009)           (2010)           (2011)            (2012)      (2021)
Total Capital
Investment


Total Expense
                         $0                  $0                 $0                      )                  )
Investment

Total Operating
                    ($15,560,556)       $161,642,139       $179,004,114    $165,599,047      $14,946,564       $253,969,485    $0          $3,273,577,655
Variances

Net Cash Flow       ($68,664,278)       ($88,205,498)     ($149,999,185)   ($154,677,917)   ($317,245,908)     $45,045,304                 $1,780,229,380

Discounted cash
                    ($68,664,278)       ($80,369,474)     ($124,531,678)   ($117,007,777)   ($218,664,314)     $28,289,605     $0              $441,495,249
flow @ 9.75%

NPV @ 9.75%        $441,495,249                      The rate of return exceeds both the discount rate and cost of capital.
ROI                19.26%


                                                                                14
Flats Sequencing System:                                   DA-AR-10-007
 Program Status and Projected Cash Flow



                       APPENDIX D: MANAGEMENT’S COMMENTS




                                          15
Flats Sequencing System:                 DA-AR-10-007
Program Status and Projected Cash Flow
Flats Sequencing System:                      DA-AR-10-007
Program Status and Projected Cash Flow




                                         17
